No. 19-1335
IN THE SUPREME COURT OF THE UNITED STATES
Timothy James Dummer,
Petitioner,
v.
Contractors’ State License Board et al.,
Respondents.
Proof of Service
I, Kari L. Dummer, do swear or declare that on this date, OCTOBER 14th, 2020,
as required by Supreme Court Rule 29, I have served the enclosed PETITION FOR
REHEARING on each party to the above proceeding or that party's counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid'
The names and addresses of those served are as followsMichael Sapoznikow
Office of the Attorney General
PO Box 944255
Sacramento, Calif. 94244-2550

Clerk of Court of Appeal
Third District
914 Capital Mall, 4th Floor
Sacramento, Calif. 95814

Honorable Geoffrey A. Goodman
Judge of the Sup. Ct.
720 Ninth Street
Sacramento, Calif. 95814

Clerk of Cal. Supreme Court
350 McAllister St.
San Francisco, Calif. 94102

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 14th, 2020.

Kari Dummer

